1(202) 551-1990
naveenmodi@paulhastings.com

September 23, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.W.
Washington, D.C. 20543
Re:

Infineum USA L.P. v. Chevron Oronite Co., et al., No. 21-350

Dear Mr. Harris:
I am counsel for Respondent Chevron Oronite Co. LLC (“Chevron Oronite”) in the
above-captioned case. Chevron Oronite’s response to Petitioner Infineum USA L.P.’s petition
for a writ of certiorari, which the Court docketed on September 7, 2021, is currently due on
October 7, 2021.
I respectfully request a 30-day extension of time, to and including November 8, 2021,
within which to file Chevron Oronite’s response to the petition. This extension is needed in light
of counsel’s competing professional commitments in other matters. The requested additional
time would enable counsel to prepare a response to the petition that will be useful to the Court
while accommodating these conflicting obligations.
Additionally, the Court has already granted the Acting Solicitor General’s request for an
extension of time, to an including November 8, 2021, for the government’s response to the
petition. Granting Chevron Oronite’s request for a similar extension of time would synchronize
the deadline for all responses, and would not delay the Court’s consideration of the petition. *
Respectfully submitted,
/s/ Naveen Modi
Naveen Modi
Counsel for Respondent Chevron Oronite Co. LLC
cc:

David E. De Lorenzi, Gibbons P.C., Counsel for Petitioner Infineum USA L.P.
Brian H. Fletcher, Acting Solicitor General

The Court’s order granting the government’s extension request indicates that the extension
until November 8, 2021 applies “for all respondents.” Chevron Oronite nevertheless files this
request specific to its own response in the abundance of caution.
*

